No. 20-5748
IN THE SUPREME COURT OF THE UNITED STATES
DACARIUS HOLLIDAY,
Petitioner
v.
STATE OF LOUISIANA
Respondent

ON PETITION FOR A WRIT OF CERTIORARI TO
THE LOUISIANA SUPREME COURT
BRIEF IN OPPOSITION TO PETITION FOR WRIT OF CERTIORARI
FILED ON BEHALF OF THE STATE OF LOUISIANA
*CAPITAL CASE*
HILLAR C. MOORE, III
DISTRICT ATTORNEY
DANA J. CUMMINGS, BAR NO. 14405
ASSISTANT DISTRICT ATTORNEY AND
CHIEF OF LITIGATION

STACY L. WRIGHT, BAR NO.25307
Counsel of Record
ASSISTANT DISTRICT ATTORNEY
NINETEENTH JUDICIAL DISTRICT COURT
PARISH OF EAST BATON ROUGE
STATE OF LOUISIANA
222 ST. LOUIS STREET, FIFTH FLOOR
BATON ROUGE, LOUISIANA 70802
TELEPHONE: (225) 389-3453
E-MAIL: stacy.wright@ebrda.org
Counsel for Respondent
1

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW ___________________________________________ 4
CITATION OF LOWER COURT OPINION ___________________________________________ 4
INTRODUCTION ______________________________________________________________ 4
STATEMENT OF THE CASE __________________________________________________ 5-11
A. Factual History ____________________________________________________ 5-9
B. Procedural History ________________________________________________ 9-11
REASONS FOR DENYING THE WRIT _________________________________________ 11-38
CONCLUSION _______________________________________________________________ 39
INDEX OF AUTHORITIES
La. C.Cr.P. art. 905.5 et seq. ______________________________________________ 29, 31
Eighth Amendment, United States Constitution _______________________________ 4
Fifth Amendment, United States Constitution ________________________________ 21
Fourteenth Amendment, United States Constitution ___________________________ 4
Abdul-Kabir v. Quarterman, 550 U.S. 233, 127 S.Ct. 1654, 167 L.Ed.2d 585 (2007) _
___________________________________________________________________________ 34
Adams v. Robertson, 520 U.S. 83, 86, 117 S.Ct. 1028, 1029, 137 L.Ed.2d 203 (1996)
_________________________________________________________________________ 13
Buchanan v. Angelone, 522 U.S. 269, 118 S.Ct. 757, 139 L.Ed.2d 702 (1998) _____ 35
Connecticut v. Barrett, 479 U.S. 523, 527-30, 107 S.Ct. 828-832, 93 L.Ed.2d 920
(1987) _______________________________________________________________ passim
Davis v. United States, 114 S.Ct. 2350, 512 U.S. 452, 129 L.Ed.2d 362 (1994) ______
_____________________________________________________________________ passim
Eddings v. Oklahoma, 455 U.S. 104, 102 S.Ct. 869, 71 L.Ed.2d 1 (1982) _____ 33, 36
Edwards v. Arizona, 451 U.S. 477 (1981) ___________________________________ 4, 15
Evans v. State, 226 So.3d 1, 18-20 (Miss. 2017)________________________________ 36
Hitchcock v. Duggar, 107 S.Ct. 1821, 481 U.S. 393, 95 L.Ed.2d 347 (1987) ____ 32, 33
Jackson v. Virginia, 443 U.S. 307, 323, 99 S.Ct. 2781, 61 L.Ed.2d 560 (1979) ____ 14
2

Lockett v. Ohio, 438 U.S. 586, 8 S.Ct. 2954, 57 L.Ed.2d 973 (1978) ___________ 34, 36
Mathews v. U.S., 485 U.S. 58, 108 S.Ct. 883, 99 L.Ed.2d 54 (1988) ______________ 13
McKinney v. Ryan, 813 F.3d 798 (9th Cir. 2015) _______________________________ 36
MI v. Mosely, 423 U.S. 96, 96 S.Ct.321, 46 L.Ed.2d 313 (1975) _______________ 15, 16
Penry v. Johnson, 532 U.S. 782, 121 S.Ct. 1910, 150 L.Ed.2d 9 (2001) ________ 34, 35
Skipper v. South Carolina, 106 S.Ct. 1669, 476 U.S. 1, 90 L.Ed.2d 1 (1986) ______ 33
Spreitz v. Ryan, 916 F.3d 1262 (9th Cir. 2019) _________________________________ 36
State of Louisiana v. Dacarius Holliday, 2017-KA-01921 (La. 1/29/20), 2000 WL
500475, reh’g denied (4/9/20) __________________________________________ passim
State v. Demesme, 228 So. 3d 1206 (La. 2017) _________________________________ 27
State v. Leger, 936 So. 2d 108 (La. 2006) ______________________________________ 27
State v. Marse, 365 So.2d 1319 (La. 1978) ____________________________________ 12
State v. Payne, 833 So. 2d 927 (La. 2002) _____________________________________ 27
State v. Taylor, 1999-1311 (La. 1/17/01), 781 So.2d 1205 _______________________ 37
Tennard v. Dretke, 542 U.S. 274, 124 S.Ct. 2562, 159 L.Ed.2d 384 (2004) ________ 34
United States v. Bernard, 299 F.3d 467, 485-87 (5th Cir. 2002) __________________ 36
United States v. Johnson, 400 F.3d 187 (4th Cir. 2007) ________________________ 27
United States v. McCullah, 76 F.3d 1087, 1114 (10th Cir. 1996) _________________ 36
United States v. McLaren, 34 M.J. 926 (A.F.C.M.R. 1992), aff'd, 38 M.J. 112 (C.M.A.
1993) ___________________________________________________________________ 27
United States v. Paul, 217 F.3d 989, 999-1000 (8th Cir. 2000) ___________________ 36
United States v. Plugh, 648 F.3d 118 (2nd Cir. 2011) ___________________________ 27
United States v. Whitten, 610 F.3d 168, 183-87 (2d Cir. 2010) __________________ 36

3

**CAPITAL CASE**
QUESTIONS PRESENTED FOR REVIEW
1. Can convictions for crimes requiring specific intent create constitutional
error where the trial court has ruled that the evidence supports criminal
negligence?
2. Do Edwards v. Arizona and Davis v. United States require law enforcement
to stop custodial interrogation and provide a suspect with counsel if a
suspect makes an unequivocal request for counsel, even after the suspect’s
original requests for counsel were limited or equivocal?
3. In a capital case where the jury determines sentencing, do the Eighth and
Fourteenth Amendments require a juror to be willing to meaningfully
consider nonstatutory mitigating circumstances?
CITATION OF LOWER COURT OPINION
The state court’s ninety-eight-page unanimous ruling can be found in full at
State of Louisiana v. Dacarius Holliday, 2017-KA-01921 (La. 1/29/20), 2000 WL
500475, reh’g denied (4/9/20).
INTRODUCTION
Because petitioner fails to prove that any of the state court’s factual
rulings were clearly erroneous, or that the state courts’ application of law are in
conflict with this Court’s precedents, his instant writ must be denied.

4

STATEMENT OF THE CASE
A. FACTUAL HISTORY
In late March or early April of 2007, Amanda Coon vacationed with a friend in
Pensacola, Florida. While in Pensacola she met the petitioner, Dacarius Holliday.
Petitioner returned to Baton Rouge with Amanda, and became her live-in boyfriend.
(R. Vol. 24, pp. 5416-5418) At that time, Amanda had two children, four-year-old
Daisha, and two-year-old D.C. (R. Vol. 24, p. 5417)
On May 14, 2007, Amanda left for her job at USAgencies at 6:30 a.m. She was
working a twelve hour shift that day. (R. Vol. 24, pp. 5418, 5420) While Amanda
normally took D.C. to daycare, she left him home that day, in the care of the
petitioner, because she was out of pull-ups, which the daycare required. (R. Vol. 24,
pp. 5418-5421)
Upon returning from her lunch break at a Subway in her office building,
Amanda’s supervisor told her that someone had been trying to reach her by phone.
It was the petitioner. He told Amanda that it was important that she come home
right away. When Amanda inquired about D.C., petitioner told her “he was sleeping.”
(R. Vol. 24, p. 5423)
Upon arriving home, the petitioner met Amanda outside, and told her he
needed to talk to her. “And he was talking about how he knows he’s done things in
his life, and this may be a reason why he is going through things right now.” (R. Vol.
24, p. 5424) The petitioner did not mention D.C. As the petitioner continued talking

5

about himself, Amanda got a funny feeling. She rushed into the house and found her
child lying unresponsive on the sofa and cold to the touch. (R. Vol. 24, pp. 5424-5425)
Amanda became hysterical. She called 911, and attempted to follow their
instructions to perform CPR but was too distraught. (R. Vol. 24, pp. 5425-5426) A
neighbor who had heard the commotion arrived at the house and attempted to
perform CPR. (R. Vol. 24, pp. 5462) Around this same time, Amanda’s brother had
arrived at her home, visiting from Houston. (R. Vol. 24, p. 5426) Petitioner’s reaction
to the situation was to repeatedly punch the walls inside and outside of the residence
with his fists. (R. Vol. 24, pp. 5426-5427)
The fire department, EMS and police arrived. Amanda’s parents also came to
the home. Amanda drove to the hospital and arrived prior to the ambulance. She
waited in a waiting area of the hospital until a doctor “came in and told me that they
done everything they could.” D.C. was gone. (R. Vol. 24, pp. 5427-5428)
It was either later that evening or the next day when petitioner telephoned
Amanda and “apologized and told me that he was sorry for what happened.” (R. Vol.
24, p. 5429) What had happened, which Amanda would learn from detectives the
following day, was that D.C. was beaten to death. (R. Vol. 24, p. 5429)
Ms. Aida “Michelle” Williams testified. She was a registered nurse working in
the emergency room at the Baton Rouge General Hospital, mid-city campus, and she
arrived to work a few minutes after D.C. was brought to the hospital. (R. Vol. 23, pp.
5222, 5224) She testified that D.C.’s case was particularly memorable due to the
extent of the bruising on the child’s body, as well as the trauma to the child’s anus

6

which she described as “distended…there were red streaks that appeared to be blood
in the canal.” She further explained that normally a baby’s buttocks “are tight, but
his were not. They were separated and apart. That was odd. Like we didn’t have to
look to find his anus, if that makes sense.” (R. Vol. 23, pp. 5223-5224)
Dr. Mokiso Murrill testified. Dr. Murrill, D.C.’s pediatrician since birth, was
accepted as an expert in pediatric medicine. (R. Vol. 23, pp. 5236-5237) He described
D.C. as healthy. He testified that he last saw D.C. on April 23, 2007 and never saw
any signs that D.C. had been abused prior to his death on May 14, 2007. (R. Vol. 23,
pp. 5237-5238) Defense counsel questioned Dr. Murrill extensively regarding the
victim’s past medical history. (R. Vol. 23, pp. 5238-5246) In connection with that
questioning, on redirect, the state presented a photograph to Dr. Murrill previously
introduced as S-6. Though the state did not attempt to prove beyond a reasonable
doubt that a sexual assault occurred in connection with the child victim’s murder, Dr.
Murrill spontaneously offered his opinion that the photograph of the victim’s anus
depicted “unquestionable sexual abuse to the perianal region,” as well as healing
impetigo lesions on the child’s buttocks. (R. Vol. 23, p. 5247)
Dr. Gilbert Corrigan testified. Dr. Corrigan, accepted by the court as an expert
in forensic pathology, performed the autopsy on D.C. (R. Vol. 23, pp. 5262-5263) Dr.
Corrigan testified that D.C.’s body “showed external evidence of blunt force trauma.
There were bruises, hemorrhagic contusions, all over his body.”

There were

approximately seventy-five total contusions to the child’s body. (R. Vol. 23, p. 5264)
The official cause of death was found to be multiple traumatic injuries due to blunt

7

force trauma to the body. (R. Vol. 23, p. 5265) Dr. Corrigan explained that the force
applied in this particular type of homicide is “usually inflicted with hands and fists
and feet, and the body of another person.” (R. Vol. 23, p. 5266)
Upon dissection of D.C.’s body, Dr. Corrigan discovered lacerations to the liver,
kidney, renal artery, and abdominal cavity. One of the child’s ribs was broken. (R.
Vol. 23, pp. 5266, 5278-5279) The child was found to have five significant contusions
on his scalp, as well as one on his cheek bone. (R. Vol. 23, p. 5272) The child had
some hemorrhage to the end of his penis and dilation of the anus. (R. Vol. 23, pp.
5280-5281) Dr. Corrigan estimated that D.C. probably died, due to internal bleeding,
within fifteen minutes of sustaining the injuries to the abdominal area. (R. Vol. 23,
p. 5267) Dr. Corrigan further estimated that the force necessary to inflict such
injuries would be powerful, “thirty to forty pounds per square inch.” (R. Vol. 23, p.
5276)
Petitioner made two statements to police, both of which were videotaped.
Petitioner admitted in these statements to having been the only person present when
the child sustained the injuries which led to his death. In the first statement,
petitioner admitted to “beating his ass” but then retracted that saying he only hit the
child on his arms and legs during the course of disciplining two year old D.C. for
urinating on himself. He admitted several times later he may have “misfired” while
spanking the child, and suggested that “one of his ribs probably broke and punched
through his lung.” He admitted that he “roughed him up.” He alleged to have put
his finger in the child’s mouth and anus to check the child’s temperature, and

8

admitted to biting the child on the foot, allegedly to elicit a response once the child
became unresponsive.
Petitioner suggested that the child may have been injured during petitioner’s
alleged attempts at CPR, and further suggested that D.C. may have fallen off of the
toilet or getting out of the bathtub while unsupervised. He maintained throughout
the interview that he did not intend to hurt or kill D.C. and that he was only guilty
of negligence. (S-48, S-51)
After considering all of the evidence and testimony, the jury unanimously
rejected the defense theory of negligent homicide and convicted the petitioner of first
degree murder.

Following the death penalty phase of trial, the jury likewise

unanimously found that the petitioner should be sentenced to death.
B.

PROCEDURAL HISTORY
On June 27, 2007, a grand jury for the parish of East Baton Rouge indicted

petitioner, Dacarius Holliday, with one count of first degree murder for the May 14,
2007 murder of D.C. (R. Vol. 1, p. 120) On October 31, 2007, petitioner, while
represented by counsel, was formally arraigned and entered a plea of not guilty as
charged. (R. Vol. 13, pp. 2899-2900) The state filed a formal notice of intent to seek
the death penalty and designation of the following aggravating circumstances: (1)
The offender was engaged in the perpetration or the attempted perpetration of
second-degree cruelty to juveniles; and (2) The victim was under the age of twelve.
(R. Vol. 8, p. 1635)

9

Both petitioner and the state filed various pretrial motions, including
petitioner’s motions to suppress two statements made by petitioner to police, and
motions relating to jury selection. The trial court presided over numerous pretrial
hearings and ruled upon the numerous motions filed. Both the state and petitioner
sought writs of review of some of those rulings.
Petitioner’s trial began on March 1, 2010 with voir dire, which took place on
March 1, 2, 3, 4, 5, 8, 9, and 10. The jury was sworn as a panel on March 11, 2010,
after which time the trial court gave preliminary instructions, and read the
indictment and plea of the accused to the jury. (R. Vol. 22, pp. 5117-5122) Both
parties gave opening statements that day. (R. Vol. 22, pp. 5122-5142) Presentation
of evidence and testimony lasted until March 13, 2010. (R. Vol. 22, p. 5147 through
Vol. 24, p. 5651) On that day the state rested its case in chief and the defense
presented one witness. (R. Vol. 24, pp. 5639-5651) On March 14, 2010, petitioner
rested and the parties presented closing arguments to the jury. (R. Vol. 25, pp. 56615701) The trial court instructed the jury, and deliberations on the guilt phase
followed. (R. Vol. 25, pp. 5702-5717) The jury deliberated for approximately one hour
and forty minutes before returning with a unanimous verdict of guilty as charged of
first degree murder. (R. Vol. 1, p. 97, Vol. 25, p. 5720)
The penalty phase of trial began on March 16, 2010 and lasted until March 17,
2010. The state presented the testimony of two surviving family members who
testified about the impact of petitioner’s crime on their lives. (R. Vol. 25, pp. 57435764) The petitioner presented the testimony of one family member, one forensic

10

psychologist, and one clinical and forensic psychologist. (R. Vol. 25, pp. 5769-5866)
The state then called Dr. Donald Hoppe, forensic psychologist, in rebuttal. (R. Vol.
25, pp. 5874-5887) Following closing arguments, and approximately two hours and
fifteen minutes of deliberations, the jury returned a verdict of death. (R. Vol. 1, p.
103, Vol. 25, p. 5897) The aggravating circumstances the jury unanimously found
beyond a reasonable doubt were: (1) The offender was engaged in the perpetration or
attempted perpetration of second degree cruelty to juveniles; and (2) The victim was
under the age of twelve (12) years. (R. Vol. 25, p. 5897)
Following the disposition of post-trial motions at a July 7, 2010 hearing, and
the waiver of the three day statutory delay by the petitioner, the trial court sentenced
petitioner, in accordance with the jury’s verdict, to death by lethal injection. (R. Vol.
26, pp. 5964-5965) The trial court denied a subsequent, untimely “Supplemental
Motion for New Trial” October 18, 2011.
Following direct appeal to the state’s highest court, the Supreme Court of
Louisiana, in a unanimous ruling, affirmed petitioner’s conviction and sentence.
State of Louisiana v. Dacarius Holliday, 2017-KA-01921 (La. 1/29/20), 2000 WL
500475, reh’g denied (4/9/20).
REASONS FOR DENYING CERTIORARI
I.
“This Court Should Consider Whether a Rational Juror Could Find
Specific Intent where the Trial Court has Found that the Evidence
Reasonably Supports a Mens Rea of Negligence.”
On March 13, 2010, during a recess after the state’s presentation of evidence
but prior to the state resting its case-in-chief, the parties made objections on the

11

record with regard to proposed jury instructions. (R. Vol. 24, pp. 5622-5633) Those
record objections were apparently a continuation of a discussion in chambers
regarding the parties’ respective positions. (R. Vol. 24, p. 5631) The defense requested
the jury be charged on the definition of negligent homicide, which definition was not
included in the trial court’s original jury charges.

The state objected because

pursuant to Louisiana law, negligent homicide is not a responsive verdict to the
charge of first degree murder, and reiterated that “we don’t believe that negligent
homicide should be included at all, your honor.” (R. Vol. 24, pp. 5628-5629)
Petitioner alleges in brief that “The State did not argue that the evidence did
not reasonably support a special jury instruction for negligent homicide,” but only
argued that negligent homicide is not responsive to the crime of first degree murder.
(Petitioner’s brief, p. 14) Clearly implicit in the state’s prosecution of the petitioner
for first degree murder, to verdict and sentence, is the state’s position that the horrific
facts of this case do not present a scenario in which the victim’s death resulted from
“negligence.” Nonetheless, and over the state’s objection, the trial court allowed the
requested definition, stating as follows: “After reading State v. Marse, the court is
inclined to agree with the defense and give instruction on negligent homicide.”1 (R.
Vol. 24, p. 5629)
Petitioner now seemingly argues in brief to this Honorable Court, that once
the trial court found that petitioner was entitled to an instruction on the definition of

In State v. Marse, 365 So.2d 1319 (La. 1978), the Supreme Court of Louisiana held that it was error
for the trial court not to include requested instructions related to negligent homicide in defendant’s
murder trial, but further held that error harmless and affirmed the defendant’s conviction for
manslaughter.
1

12

negligent homicide, the court should have immediately acquitted the defendant on
the crime charged, sent the jury home, and called it a day. While certainly an
interesting assertion, this Court lacks jurisdiction over the question presented
according to its jurisprudence. Absent “very rare exceptions,” when reviewing state
court judgments under 28 U.S.C.A. section 1257, this Court has adhered to the rule
that it will not consider a petitioner’s federal claim unless it was either addressed by,
or properly presented to the state court that rendered the decision now sought to be
reviewed. Adams v. Robertson, 520 U.S. 83, 86, 117 S.Ct. 1028, 1029, 137 L.Ed.2d
203 (1996). While petitioner alleged in the state supreme court that the evidence was
insufficient to support the verdict, his argument in state court focused on an alleged
lack of intent. Petitioner also asserted a new hypothesis of innocence on direct appeal
in state court, i.e., that petitioner’s actions did not cause the victim’s death at all.
Completely absent from his state petition is the current argument, which, carried to
its illogical conclusion, is that the trial court’s inclusion of an instruction on negligent
homicide was tantamount to an acquittal on the charge of first degree murder.
Petitioner cites no authority for this proposition. In fact, in Mathews v. U.S., 485 U.S.
58, 108 S.Ct. 883, 99 L.Ed.2d 54 (1988), this Court recognized that a defendant in a
criminal case is entitled to assert inconsistent defenses, and thus, is entitled to
inconsistent jury charges. Furthermore, the trial court’s decision to include a jury
charge on negligent homicide was not based upon any expressed belief that the

13

petitioner was only guilty of negligent homicide, but upon his belief that the charge
was required by Louisiana jurisprudence.
In the event that counsel has misconstrued petitioner’s argument, and he is
simply asserting insufficiency of the evidence pursuant to this court’s decision in
Jackson v. Virginia, 443 U.S. 307, 323, 99 S.Ct. 2781, 61 L.Ed.2d 560 (1979), “A
petition for a writ of certiorari is rarely granted when the asserted error consists of
erroneous factual findings or the misapplication of a properly stated rule of law.” U.S.
Sup. Ct. R. 10.
Lastly, the state supreme court properly applied Jackson v. Virginia, and
properly found the evidence constitutionally sufficient to support the conviction. In
a unanimous opinion, the Supreme Court of the State of Louisiana painstakingly
reviewed all of the evidence and testimony presented at trial, concluding,
We find that the State presented sufficient evidence to show that
the two-year-old victim died because of the severe beating the 29-yearold defendant inflicted upon him. Moreover, we conclude there is
sufficient evidence to show that defendant had the specific intent to
inflict great bodily harm on the victim when he repeatedly punched him
with enough force to lacerate the toddler's internal organs and cause
internal bleeding, ordered him to sit for hours on the toilet as
punishment for a toilet-training accident, and bit the victim on the foot
with enough force to leave clearly visible dental impressions. Even after
the toddler had died of the injuries caused by defendant's beating,
defendant spoke of “beating his ass” and mocked the dying child's cries
as “whimpery-ass bullshit,” and referred to him as a “little bitch.”
Particularly in conjunction with defendant's animus toward the toddler,
evident in his videotaped statement, the fatal internal injuries
defendant inflicted while punching and beating the two-year-old victim
are sufficient to show defendant's specific intent to kill or inflict great
bodily harm. Cf. State v. Fuller, 414 So.2d 306, 310 (La. 1982) (Specific
intent to cause serious bodily harm inferred because “[w]hen a much
stronger man hits a younger, smaller man, the fact finder could
rationally conclude that the offender intended to cause, at a minimum,
14

unconsciousness and/or extreme physical pain.”); State v. Hager, 130546 (La. App. 5 Cir. 12/27/13), 131 So.3d 1090, 1092–93 (Specific intent
to cause serious bodily injury can be inferred where male defendant
punched female victim with sufficient force to fracture her orbital bone.);
State v. Accardo, 466 So.2d 549, 551–52 (La. App. 5 Cir. 1985), writ
denied, 468 So.2d 1204 (La. 1985) (specific intent to cause serious bodily
injury where male defendant struck female victim in the head, causing
her face to swell).
The State also showed that by punching a toddler with closed
fists, biting his foot with enough force to leave a clear impression of his
teeth, inserting his finger into the child's anus, and failing to seek
medical attention when the child was unresponsive and not breathing,
defendant mistreated or neglected the victim intentionally, or with
criminal negligence, and thereby caused serious bodily injury. These
elements establish the aggravating factor of second-degree cruelty to a
juvenile. We reiterate that: the court does not determine whether
another possible hypothesis has been suggested by defendant which
could explain the events in an exculpatory fashion. Rather, the
reviewing court evaluates the evidence in the light most favorable to the
prosecution and determines whether the alternative hypothesis is
sufficiently reasonable that a rational juror could not ‘have found proof
of guilt beyond a reasonable doubt.’ State v. Captville, 448 So.2d 676,
680 (La. 1984) (internal citation omitted) (emphasis added). Based upon
the aforementioned analysis, under Jackson v. Virginia, 443 U.S. 307,
99 S.Ct. 2781, 61 L.Ed.2d 560 (1979), we find the State has proven
beyond a reasonable doubt each of the essential elements of the crime
charged. As a result, this assignment of error is without merit, and we
therefore turn to defendant's remaining assignments of error.
State v. Holliday, 2017-01921 (La. 1/29/20)
II.
“Louisiana’s Rule Ignoring Unequivocal Requests for Counsel During
Custodial Interrogation When Preceded by a Limited Invocation of Counsel
would Gut the Protections of Edwards v. Arizona and Contravene the
Holding of Davis v. United States.”
In his claim before the state supreme court, petitioner first argued that he
made a general, unequivocal and unlimited invocation of his right to remain silent.
In “Part B” of his argument in the state supreme court, petitioner stated that the
court could find, pursuant to MI v. Mosely, 423 U.S. 96, 96 S.Ct.321, 46 L.Ed.2d 313
15

(1975) that Mr. Holliday’s alleged “multiple requests for a lawyer only established
limited invocations,” but maintained that his rights were nonetheless violated.
The state supreme court rejected both arguments, finding instead that the
petitioner’s “request for counsel was clearly a limited invocation per Barrett and not
a general invocation of his right to counsel that would require termination of the
interview.”2

In contrast to Mosley, who had requested a lawyer prior to

interrogation about a specific topic, Barrett had only requested counsel be
present prior to the act of making a written statement. In Connecticut v. Barrett,
this Honorable Court noted that “Barrett made clear to police his willingness to
talk about the crime for which he was a suspect,” and further noted that “The
fundamental purpose of the Court’s decision in Miranda was ‘to assure that the
individual’s right to choose between speech and silence remains unfettered
throughout the interrogation process.” (Emphasis added) As did the petitioner in
Barrett, petitioner Dacarius Holliday made clear to police his willingness to talk
about the crime for which he was a suspect and his invocation of his right to counsel
was limited to the act of a voluntary submission of a DNA sample. However,
petitioner never voluntarily submitted a DNA sample and petitioner’s right was
honored when detectives, over the petitioner’s objections, ceased questioning and
obtained a warrant for his DNA.

2

Holliday, citing Connecticut v. Barrett, 479 U.S. 523, 527-30, 107 S.Ct. 828-832, 93 L.Ed.2d 920

(1987).

16

Though the argument is not entirely clear, petitioner now seemingly argues
anew he invoked his right to counsel for interrogation purposes; he did not.
Furthermore, just as he failed in the state supreme court, petitioner has failed before
this Honorable Court to accurately portray the proceedings, facts and circumstances
surrounding the taking of his statement.
Petitioner gave two statements to police, on May 14 and 15, 2007, respectively.
On June 1, 2009, the state filed a “Motion in Limine to Determine the Admissibility
of the Defendant’s Statements.” (R. Vol. 5, p. 962) On June 30, 2009, the defendant
filed a “Motion to Suppress I” (R. Vol. 5, p. 1133) with respect to the statement given
on May 14, 2007, wherein he alleged he did not knowingly and intelligently waive his
Miranda rights due to a “history of mental problems” and “low intelligence.” He
further alleged that he “continuously asked for an attorney,” and that statements and
DNA were taken in violation of his rights. Also on June 30, 2009, defendant filed a
“Motion to Suppress II,” seeking to suppress the statement given on May 15, 2007,
for essentially the same reasons. (R. Vol. 5, p. 1136) Finally, on August 11, 2009,
defendant filed a “Supplemental Motion to Suppress I” alleging that he was
“psychologically interrogated,” “coerced,” “under Duress,” and that “Police officer took
advantaged of his low intelligent and low-educational level.” [sic] (R. Vol. 6, p. 1228)
Thereafter, on August 12, 2009, the state’s Motion in Limine and the
defendant’s motions to suppress I and II came on for a hearing. The defendant’s
“Supplemental Motion to Suppress I” was not heard as it was filed beyond the court’s
cut-off date. (R. Vol. 16, pp. 3528-3532) At that hearing, Detective Ross Williams

17

testified that he advised the defendant of his Miranda rights by reading them to the
defendant off of a standardized form. (R. Vol. 16, pp. 3535-3536) The defendant
indicated he understood his rights as read to him, both verbally and by his signature
on the rights form. (R. Vol. 16, pp. 3536, 3538; S-47) Thereafter he gave a statement
that was videotaped. (R. Vol. 16, pp. 3537-3538; S-48) Detective Williams testified
that the defendant did not appear to be under the influence of alcohol or drugs, and
no threats or promises were made to obtain a statement from the defendant. (R. Vol.
16, p. 3538) The detective testified that Holliday was “calm,” “forthcoming,” and “just
freely sat down and began to talk with us.” (R. Vol. 16, p. 3539) Holliday never
indicated he wanted an attorney present in order to speak with detectives and never
stated he did not wish to speak to detectives. (R. Vol. 16, p. 3539) Holliday did ask
for an attorney “for the DNA part only.” (R Vol. 16, pp. 3539-3540) However,
defendant’s DNA was later seized pursuant to a search warrant. (R. Vol. 16, p. 3540)
Following state’s questioning to lay a proper foundation, video of the
statements given by the defendant on May 14, 2007 and May 15, 20073 were allowed
to be played in open court. The first statement was played in open court, after which,
due to the lateness of the hour, the matter was continued until the next day. (R. Vol.
16, pp. 3540-3558) The following afternoon, August 13, 2009, the second statement
was played in open court. (R. Vol. 16, p. 3566) On defendant’s cross-examination,
the detective admitted that the defendant had asked for a lawyer more than once, but
clarified that “He asked for a lawyer for the DNA only.” (R. Vol. 16, pp. 3575-3576)

The statement on May 15th was given at the defendant’s request. Detectives nevertheless obtained
a second waiver of rights. (See Vol. 16, pp. 3547-3548)
3

18

Detective Williams further clarified that a warrant was obtained prior to the taking
of DNA. (R. Vol. 16, p. 3575) Following argument of counsel, the trial court ruled
that statements given by the defendant on May 14 and 15, 2007 would be admissible
at trial. (R. Vol. 16, p. 3589) The court agreed that defendant clearly asked for an
attorney for the taking of DNA only and that the defendant continuously engaged
with officers even after they sought to, out of an abundance of caution, end the
questioning. (R. Vol. 16, p. 3588)
The videotaped statements themselves support the trial court’s finding as to the
free and voluntary nature of the statements. In neither statement did defendant ever
ask for an attorney prior to questioning, nor did defendant even hint at exercising his
right to remain silent.
At approximately six minutes into the videotaped statement of May 14, 2007, the
defendant stated he wanted an attorney present for the taking of DNA. When
asked whether he wanted an attorney for the interview, defendant was adamant
that, “I don’t want an attorney man, cause I ain’t did nothing.” (S-48)
At eight minutes into the interview, the defendant, apparently under the belief he
could convince detectives they did not need a DNA sample, invited detectives to “Ask
me. I’ll tell ya straight up” apparently regarding any suspicions they had.
At forty-two minutes into the interview, detectives again asked if the defendant
would consent to a DNA sample. Dacarius again states he wants a lawyer “for DNA,”
apparently under the mistaken assumption that detectives would have to disclose
more information about what they had found on the victim’s body to an attorney.

19

Detectives explained that they did not and would not. For several minutes Dacarius
is questioning the detectives relative to DNA. For several more minutes Dacarius is
waffling, mumbling, staring at the wall, or hiding underneath his t-shirt. After once
again saying he would consent, but “I will need a lawyer to be present for that,” the
detective asks “So you want an attorney is what you’re saying?” Response: “I DON’T
WANT A LAWYER CAUSE I DON’T HAVE NOTHING TO DEFEND.”
At fifty-five minutes, the detective says, “he says he wants a lawyer, let’s stop.”
Response: “DON’T STOP MAN!” Defendant keeps engaging with the officers, asking
questions.
At 57:29 the detective explains to Dacarius, “You’ve asked for an attorney – I have
to stop. By law, that’s what I need to do.” Dacarius continues to waffle, and to engage
detectives, at the one hour mark instructing the crime scene investigation officer who
was present to “Go get your swab.” However, a minute later, while detectives are
going through the voluntary consent form, Dacarius renews his request for an
attorney for the taking of DNA. Detectives leave. About two minutes later, Dacarius
opens the door to the interview room to re-engage with detectives who tell him there
is “nothing else to talk about.”
At 1:12:35, defendant exclaims, “I DON’T WANT NO LAWYER, I DON’T WANT
NOTHING MAN…LET’S JUST CONTINUE WITHOUT AN ATTORNEY…LET’S
DO IT…LET’S DO THIS SH--!” Officers, understandably exasperated, told him it
was too late to consent, they were getting a warrant.

20

Not once did petitioner assert his Fifth Amendment right to remain silent. In
fact, he simply would not stop talking, even after detectives sought to end the
interview.
The videotaped statement of May 14, 2007 speaks for itself. The evidence of the
voluntary nature of defendant’s statement is crystal clear. The Supreme Court of
Louisiana, painstakingly applying this Honorable Court’s principles, agreed:
Defendant states the trial court erred by denying his motions to
suppress his waiver of rights forms and the two statements he made to
police, arguing that the police continued to interrogate defendant after
he repeatedly requested a lawyer in violation of Edwards v. Arizona, 451
U.S. 477, 101 S.Ct. 1880, 68 L.Ed.2d 378 (1981). He further contends the
police failed to honor his limited request for counsel, in accordance with
Connecticut v. Barrett, 479 U.S. 523, 527-30, 107 S. Ct. 828-832, 93 L.Ed.
2d 920 (1987) (a defendant's request for counsel in the event that he had
to give a written statement was limited to that situation and did not
serve as a general invocation of the right to counsel prohibiting
subsequent police-initiated questioning). Specifically, in his first motion
to suppress, defendant argued that his statements were involuntary
because police did not honor his requests for an attorney, and in his
second motion to suppress, defendant asserted that he did not knowingly
waive his rights before giving his statement.
When an accused has “expressed his desire to deal with the police
only through counsel, [he] is not subject to further interrogation by the
authorities until counsel has been made available to him unless the
accused himself initiates further communication, exchanges, or
conversations with the police.” Edwards v. Arizona, 451 U.S. 477, 484–
485, 101 S.Ct. 1880, 1885, 68 L.Ed.2d 378 (1981). A defendant may
invoke his right to counsel for limited purposes, however, without
triggering the rule of Edwards. See also, Barrett, supra.
As a general matter, before inculpatory statements may be
admitted into evidence, the State has the burden of affirmatively
showing that they were made freely and voluntarily and not under the
influence of fear, duress, intimidation, menace, threats, inducements, or
promises. See La. R.S. 15:451; State v. West, 408 So.2d 1302, 1307 (La.
1982); State v. Dewey, 408 So.2d 1255, 1258 (La. 1982). If the statement
was made during custodial interrogation, the State must show that the
defendant was advised of his constitutional rights. Miranda v. Arizona,
21

384 U.S. 436, 86 S.Ct. 1602, 16 L.Ed.2d 694 (1966); State v. Petterway,
403 So.2d 1157, 1159 (La. 1981); State v. Sonnier, 379 So.2d 1336, 1355
(La. 1979). The admissibility of such statements is a question for the
trial judge, whose conclusions on the credibility and weight of testimony
relating to the voluntariness of a confession for the purpose of
admissibility should not be overturned on appeal unless they are not
supported by the evidence. State v. Jackson, 381 So.2d 485, 487 (La.
1980). Improper admission of a coerced statement is subject to harmlesserror analysis. Arizona v. Fulminante, 499 U.S. 279, 310, 111 S.Ct. 1246,
1265, 113 L.Ed.2d 302 (1991).
At the motions hearing, Detective Ross Williams testified that on
May 14, 2007, the night the victim died, he and Detective Brian Watson
transported defendant to the police station from the scene. Before
questioning defendant, they informed him of his Miranda rights,
defendant acknowledged and appeared to understand them and
thereafter signed a waiver of rights form. Det. Williams further testified
that defendant's entire statement was video recorded, defendant did not
appear to be under the influence of alcohol or drugs, and the detectives
did not threaten him or promise him anything in return for the
statement. Det. Williams indicated that defendant was generally
“forthcoming,” but during the interview when the police requested a
DNA sample, defendant requested an attorney to advise him regarding
his consent to providing the DNA. Because defendant was vacillating on
whether to consent to providing a DNA sample, later that evening police
obtained a warrant authorizing them to obtain the DNA sample and
then retrieved the sample by swabbing defendant's cheek with the help
of Crime Scene Investigator Mindy Stewart. After defendant gave his
statement and police obtained the DNA sample, the police brought him
home.
Det. Williams testified that the next morning, defendant
spontaneously called him and asked to attend the autopsy to discuss his
theories about the victim's cause of death. Det. Williams told defendant
that he could not attend the autopsy but agreed to send an officer to give
defendant a ride to the police station so he could offer his theories. When
defendant arrived, Det. Williams again advised him of his rights, and
defendant signed another waiver of rights form, prior to giving a second
video-recorded statement. At the conclusion of his second statement,
defendant was placed under arrest.
After Det. Williams testified at the hearing, the defense objected
to the admission of defendant's statements and waiver forms, arguing
the State failed to prove defendant had knowingly and voluntarily
22

waived his rights before giving his statements. Specifically, defendant
argued that the State failed to clearly establish which officer had signed
defendant's waiver of rights forms. The State countered that Det.
Williams testified at both hearings that he was present when defendant
was advised of his rights, that he saw defendant sign the form, and that
Det. Williams, Det. Watson, and defendant all signed each waiver of
rights form before defendant began his statements. The trial court
ultimately concluded that defendant's signed waiver-of-rights forms
were admissible based upon Det. Williams' testimony.
Similarly, the defense argued that defendant's recorded
statements were inadmissible because he requested an attorney
multiple times, that the beginning of the interviews are not shown in
the video, and that “it is clear from the tapes that he didn't understand
what his rights were,” such that defendant did not knowingly,
intelligently, or voluntarily waive his rights. In contrast, the State
argued that the videos showed defendant's statements were entirely
voluntary, emphasizing that defendant himself had requested the
second interview. The video showed the detectives did not use any
coercive tactics, defendant called the detectives back multiple times
when they tried to leave the room, and each time defendant mentioned
an attorney, the detectives paused the interview to clarify his request.
When it was not entirely clear whether defendant was requesting an
attorney, the detectives stopped the interview and stepped out of the
room until defendant called them back in to resume the interview.
Importantly, because it was not clear whether defendant was consenting
to providing a DNA sample, the detectives obtained a warrant before
collecting defendant's DNA.
After reviewing Det. Williams' testimony and watching the
recordings of defendant's statements, which the court found clearly
showed that defendant freely and voluntarily spoke with the detectives,
the court ruled that both of defendant's statements were admissible. As
to the first statement, the court also noted that, while defendant did
request counsel several times, he was clear that the request only related
to his consent to providing a DNA sample. The trial court found that
defendant otherwise wanted to continue speaking with the detectives.
Moreover, each time defendant requested an attorney the detectives
stopped the interview until defendant actively re-engaged them.
We find defendant's second recorded interview reveals no
violation of defendant's rights, during which, notably, defendant never
requested an attorney. Moreover, he initiated this second interview by
calling the detectives in an effort to advance his own theories regarding
23

the victim's death. Based upon our review of the record, we specifically
find the defendant's second interview is clearly voluntary, free of
coercion, and admissible per Edwards.
Regarding defendant's first statement, a review of the video
shows that statement was also voluntary and free of coercion. Although
defendant requested an attorney initially for the limited purposes of his
consent to providing a DNA sample, we find the detectives properly
stopped the interview to clarify defendant's request, before resuming
non-DNA questioning after he clearly stated his intent. Defendant's first
mention of an attorney occurs at approximately 0:06:07 in the first
recorded interview, after the detectives first requested that defendant
voluntarily provide a DNA sample. Defendant responded:
Defendant: I'll do it, man, but my—I need a lawyer though, cause I don't,
I don't, y'all got me somewhere I don't want to be at.
Officer: So you want a lawyer now?
Defendant: I—for the DNA part, everything else, I don't need a lawyer
for, cause I don't know nothing about that, I don't know nothing about
no DNA.
Officer: Ok, I'm just asking you, do you want an attorney here?
Defendant: Just for the DNA. Everything else—
Officer: So when we swab you for DNA?
Defendant: So I could ask him, so he could know, don't y'all gotta tell
him? What y'all swabbing for? I mean, I know y'all telling—
Officer: I tell him the same thing I told you.
Defendant: But, I mean, if he was my lawyer don't y'all gotta tell him
like, well, “Look, we found something, the babysitter penetrated, so we
want to check DNA on him for that.”
Officer: No. Not necessarily.
Officer 2: We never said we found anybody penetrated or nothing,
nobody said that.
Defendant: Well that's good.
24

Officer: There's some fluids on the outside of the boy's body that we need
to find out where they came from. That's all we got, and that's all we
wanna know right now. But if you want an attorney here, I'll—
Defendant: I don't want no attorney, man, ‘cause I ain't did nothing.
Officer 2: Ok, there you go. So we do your DNA and we finish all that
we're doing, and we do whatever that, we move on, and we get this
finished with.
Defendant: I don't trust that. I swear man.
Officer: Ok, well that's cool, that's totally up to you. I can't make you do
anything you don't want to do.
In this instance, defendant's request for counsel was clearly a
limited invocation per Barrett and not a general invocation of his right
to counsel that would require termination of the interview. Importantly,
after defendant asked more questions of the detectives, he distinctly
stated that, “I don't want no attorney man, cause I ain't did nothing.”
He then voluntarily continued the interview by inviting the detectives
to ask him more questions.
Defendant's voluntary statement continued until roughly
00:36:00, when the detectives walked out into the hallway for roughly
five minutes, and returned with Crime Scene Investigator Mindy
Stewart. As Ms. Stewart prepared to take defendant's DNA sample,
defendant told them, “I don't care about no DNA, man, but y'all got ta, I
need a lawyer so if you say you've got something you gotta tell that
lawyer what is y'all checking on me for, I mean you checking my clothes.”
From that point forward, the remainder of this first interview
primarily consisted of discussion between defendant and the detectives
as they attempted to clarify defendant's request for counsel,
interspersed with defendant's questions to detectives about the victim's
injuries, the evidence they were seeking to test, and the ramifications of
the DNA testing. Defendant made no further substantive statements.
Despite defendant's claims that he issued numerous individual requests
for counsel that the detectives ignored, we find the exchange between
the detectives and defendant dictates otherwise. Specifically, the video
shows that defendant's requests for counsel were all part of a continuous
exchange in which defendant alternated between making repetitive and
ambiguous statements regarding his limited request for counsel, asking
25

the detectives about the DNA testing and evidence, and asking
detectives about the victim's injuries. It is clear from the recording that
detectives asked defendant no further questions beyond what was
necessary to clarify defendant's request for counsel and whether
defendant would consent to providing a DNA sample. The detectives
never coerced or pressured him to speak and rigorously respected his
invocation of his right to counsel, as demonstrated by the following
excerpt:
Defendant: I will take [the DNA test], but I need a lawyer to be present
for that. I don't want a lawyer because I have nothing to defend, but if
you're coming with this whole DNA, I just want a lawyer because I don't
understand this.
Detective: He says he wants a lawyer, let's stop.
Defendant: Don't stop!
Detectives: If you say you want a lawyer, I have to stop until the lawyer
gets down here.
We find the video shows that defendant's first statement was also
entirely knowing and voluntary. Detectives immediately ceased
questioning when defendant asked for counsel, and further, neither
defendant's statement nor his DNA were obtained via coercive interview
techniques. In sum, defendant's statements here were not under the
influence of fear, duress, or intimidation, and we find no reversible error
in their admission. As a result, we find these assignments of error to be
without merit.
State v. Holliday, 2017-01921 (La. 1/29/20)
The state supreme court properly applied the law and jurisprudence to the
facts in finding that petitioner’s constitutional rights were scrupulously honored.
Lastly on pages 20 through 26 of his application, petitioner cites, for the first
time anywhere in these proceedings, more than two dozen state and federal cases

26

which, if they have any relevance at all, simply bolster the state supreme court’s
finding that petitioner’s rights were safeguarded. 4
In Davis v. United States, 114 S.Ct. 2350, 512 U.S. 452, 129 L.Ed.2d 362 (1994),
one of the cases cited, the Davis Court simply held that a petitioner’s remark, that
“Maybe I should talk to a lawyer,” prior to continuing to answer NIS agents’
questions, did not require questioning to cease. Furthermore, while noting that “it
will often be good police practice” to submit clarifying questions subsequent to an
ambiguous reference to counsel during questioning, this Court did not require it.
As stated herein, early in the interview process, petitioner stated that he
wanted an attorney present for the taking of DNA. As properly found by the state
supreme court, this was a limited request for counsel pursuant to Barrett.
Nevertheless, out of an abundance of caution, and in accordance with suggestions by
the Davis court, detectives demonstrated “good police practice” in asking clarifying
questions regarding petitioner’s request.

Petitioner’s actions in subsequently

Petitioner’s rambling discussion of cited case law, demonstrates, if not a misunderstanding of the
content and holdings thereof, an ambivalence to that content and the applicability herein. For
instance, petitioner makes reference to the “now infamous” case of State v. Demesme, but the Louisiana
Supreme Court’s writ denial appears to have gone undisturbed. In State v. Leger, the question was
whether detectives’ violation of defendant’s right against self-incrimination in an initial interview, in
which he repeatedly stated that he did not want to talk to detectives, had a coercive effect on
subsequent statements. The court found a second statement not to be the product of custodial
interrogation at all, and a third and fourth statement not the product of coercion. Petitioner
apparently casts dispersions on the Payne court though the facts show that defendant was not being
interrogated at all when she asked the question, “may I call a lawyer?” In United States v. Johnson,
the defendant stated unequivocally, and in writing that he did “not want to make a statement at this
time without a lawyer.” In U.S. v. McLaren, defendant made an unequivocal statement, “I think I
want a lawyer.” In Plugh, the defendant simply refused to sign a waiver of rights form. These string
citations continue for several more pages describing various scenarios wherein courts determine
whether various requests (“I think I need a lawyer present,” “Could I have a lawyer,” defendant “could
use” an attorney, “I guess I should get a lawyer,” “can I get a lawyer?”) are equivocal or unequivocal.
Given that petitioner in this case never once stated, equivocally or unequivocally, that he was
interested in a lawyer prior to discussing the case with detectives and answering their questions, this
lengthy discussion of random case law serves no purpose save to confuse the issue, or simply as “filler.”
4

27

imploring detectives to ask him questions about the crime, and proudly proclaiming
that he would answer those questions “straight up,” dispelled any notion whatsoever
that he wished to have a lawyer present for questioning.
The remainder of petitioner’s argument consists of a comparative summary of
various state and federal case law, culminating in the assertion that, “Because there
is such evident disagreement as to the proper inquiry following an equivocal request
for counsel, Petitioner requests this court to reconsider its opinion in Davis and
resolve the incongruence in lower authority.” Even if such were true and/or any
reconsideration prudent, the petitioner’s implication that the case at hand is the
proper vehicle to do so is simply mystifying. To reiterate, petitioner herein made no
request for counsel prior to, or for purposes of, interrogation, much less an “equivocal”
one. The state supreme court’s language in its opinion regarding the defendant
“making repetitive and ambiguous statements regarding his limited request for
counsel,” upon which petitioner appears laser focused in attempting to improperly
pigeonhole this case into a Davis-type analysis, clearly refers to the petitioner having
reversed his limited invocation pursuant to Barrett, more than once. Practically
speaking, the only way officers could have violated petitioner’s limited invocation of
his right to an attorney would have been to hold him down and extract a DNA sample
without his consent; this never happened.

28

III. “This Court Should Apply the Well-Established Rule that a Sentencer
Must Not Refuse to Consider Any Non-Statutory Mitigating Circumstances
to Jury Selection in Capital Cases.”
Louisiana law and the state court disposition:
Louisiana’s statutory mitigation law is codified in La. C.Cr.P. art. 905.5.5 La.
C.Cr.P. art. 905.5(h) lists “any other relevant mitigating circumstances.” The phrase “any
other relevant mitigating circumstances” is not further defined in the statute.
Petitioner assigned as error in the state Supreme Court, rulings denying
defendant’s cause challenges to jurors defendant claimed were unwilling to consider
non-statutory mitigating circumstances.
The Louisiana Supreme Court, applying state jurisprudence to interpret state
law, found that the trial court did not commit reversible error in denying petitioner’s
cause challenges:
In this instance, we find the defendant fails to show the trial court
abused its discretion in denying these cause challenges. See State v.
Blank, 04-0204, p. 25 (La. 4/11/07), 955 So.2d 90, 113, citing State v.
5

La. C.Cr.P. Art. 905.5 is the pertinent law:
The following shall be considered mitigating circumstances:
(a) The offender has no significant prior history of criminal activity;
(b) The offense was committed while the offender was under the influence of extreme
mental or emotional disturbance;
(c) The offense was committed while the offender was under the influence or under the
domination of another person;
(d) The offense was committed under circumstances which the offender reasonably
believed to provide a moral justification or extenuation for his conduct;
(e) At the time of the offense the capacity of the offender to appreciate the criminality
of his conduct or to conform his conduct to the requirements of law was impaired as a
result of mental disease or defect or intoxication;
(f) The youth of the offender at the time of the offense;
(g) The offender was a principal whose participation was relatively minor;
(h) Any other relevant mitigating circumstance. (Emphasis added)

29

Cross, 93-1189 (La. 6/30/95), 658 So.2d 683, 686–687 (“A trial court is
vested with broad discretion in ruling on challenges for cause, and these
rulings will only be reversed when a review of the voir dire record as a
whole reveals an abuse of discretion.”). Although the challenged
individuals did not promise to accord a specific weight to the particular
unenumerated factors defendant proposed, each stated that they could
consider, or contemplate, all of the enumerated mitigating factors of
La.C.Cr.P. art. 905.5, and further, they each appropriately indicated
they would consider any other mitigating factor they deemed relevant
for purposes of La.C.Cr.P. art. 905.5(h).
We note that there is a distinction between considering a factor
and determining what weight, if any, to give that particular listed factor.
In other words, for purposes of La. C.Cr.P. art. 905.5, to “consider”
something requires a juror to focus or reflect upon a mitigating factor
but does not dictate their arriving at a particular conclusion. Here,
rather recognizing that jurors would “think carefully” about the
mitigating factors, defendant appears to be seeking a commitment from
these jurors to grant special consideration to the mitigating factors he
would be presenting. Such an interpretation of La. C.Cr.P. art. 905.5 is
prohibited. Cf. Williams, 96-1023, pp. 8-10, 708 So.2d at 712-14 (citing
State v. Bourque, 622 So.2d 198, 227 (La.1993), rev'd on other grounds
by, State v. Comeaux, 93-2729 (La. 7/1/97), 699 So.2d 16, the Court
finding that when determining whether or not a juror should be
dismissed for cause, the trial judge should consider the potential juror's
answers as a whole and not merely consider “correct” answers in
isolation.) Upon our review of the entire voir dire process in this case,
we do not find any reversible error in the trial court's rulings in this
regard.
State v. Holliday, 2017-01921 (La. 1/29/20)
Petitioner characterizes the Louisiana Supreme Court’s ruling as holding that
“a juror need not be willing to consider the mitigating circumstances relevant to the
case before them, so long as they can consider other hypothetical mitigation.” The
state does not agree with this characterization. The state supreme court concluded
that the jurors’ answers as a whole indicated a willingness to follow the law, as that
law has been interpreted by that court’s prior decisions.

30

Voir dire of challenged jurors:
Juror Joseph Carlock testified that he could keep an open mind throughout the
penalty phase, consider each statutory mitigating factor, and anything else that “came up
during the course of either guilt or penalty” that he felt was relevant and mitigating. He
testified that he would have to hear the case before he made any kind of judgment.
During defense voir dire, Mr. Carlock was asked specifically if he could
consider a fatherless home, substance abusing parent, difficult home life or abusive
home, as factors in determining what sentence would be appropriate. Mr. Carlock
responded regarding each that he could not, with the exception of an abusive home,
which he related, “It would have to be proven to me that it was very abusive.” (R.
Vol. 21, pp. 4814-4845)
Juror Robert Lambert testified that he could keep an open mind all the way
through the penalty phase and base his decision on all of the facts and circumstances
submitted throughout the case. He confirmed he could consider all of the factors
listed in La. C.Cr.P. 905.5. Similar to Carlock, in response to pointed questions by
defense counsel, he stated that he could not consider a fatherless, alcoholic, abusive
home in mitigation. (R. Vol. 21, pp. 4811-4849)
Juror Eric Mitchen testified that he could consider each of the mandatory
statutory mitigating circumstances, keep an open mind throughout the penalty
phase, and give consideration to any circumstance he felt was mitigating. However,
he did not believe he could consider an abusive childhood to be a mitigating
circumstance during the penalty phase for the reason that family members had been
abused as children and did not commit murders. With regard to “having mental
31

disorders,” he explained that he himself had been diagnosed as bipolar, as had other
family members, but that he was proactive in treating the condition. (R. Vol. 14, pp.
3137-3172)
A fourth juror, Ms. Keri Jackson-Parker, was initially equivocal regarding
mitigation but ultimately, in response to defense questioning, stated she could
“meaningfully consider” factors “such as brutal childhood, abusive parents, alcoholic
parent, either the person or the parent having a mental disorder such as bipolor.” (R.
Vol. 17, pp. 3879-3934; Vol. 18, pp. 3966-3970)
United States Supreme Court cases cited by petitioner:
None of the cases cited by the petitioner hold that prospective jurors are
subject to being challenged for cause absent an express commitment to the defense,
to consider, in the abstract, as mitigating, every non-statutory mitigating
circumstance posited by the defense, prior to the juror hearing any of the evidence
and testimony in the state and defendant’s case-in-chief, rebuttal, or any of the
evidence and testimony presented during the penalty phase.
In Hitchcock v. Duggar, 107 S.Ct. 1821, 481 U.S. 393, 95 L.Ed.2d 347 (1987),
petitioner was sentenced to death pursuant to a Florida scheme that tasked the trial
jury with rendering an “advisory verdict” on the existence of aggravating and
mitigating circumstances, but left the ultimate decision as to sentence of life or death
to the trial judge. Petitioner’s trial counsel introduced evidence to the jury regarding
a childhood habit of petitioner of sniffing gasoline fumes and its possible neurological
effects, regarding petitioner being one of seven children in a poor family that earned

32

a living by picking cotton, death of his father by cancer, his being an affectionate
uncle, youth, potential for rehabilitation, difficult upbringing and his voluntary
surrender to authorities. However, the jury was instructed to consider only the
enumerated statutory mitigating circumstances, and the trial court expressed that in
making the final determination as to sentence, it was “mandated” to apply only those
enumerated circumstances. Petitioner Holliday’s jury was specifically instructed
to consider “any other relevant mitigating circumstances,” quite the opposite of the
instructions to the Florida jury in Hitchcock.
In Skipper v. South Carolina, 106 S.Ct. 1669, 476 U.S. 1, 90 L.Ed.2d 1 (1986),
this court did not address jury challenges at all. The “only question” before this court
was “whether the exclusion from the sentencing hearing of the testimony petitioner
proffered regarding his good behavior during the over seven months he spent in jail
awaiting trial deprived petitioner of his right to place before the sentencer relevant
evidence in mitigation of punishment.”

This Honorable Court held that it did.

Petitioner Holliday’s penalty phase evidence was extensive, and not similarly
proscribed by the trial court.
In Eddings v. Oklahoma, 455 U.S. 104, 102 S.Ct. 869, 71 L.Ed.2d 1 (1982), the
Oklahoma death penalty statute stated that “In the sentencing proceeding, evidence
may be presented as to any mitigating circumstances…”

This Honorable Court

reversed the defendant’s death penalty, and remanded, due to the sentencer’s, in this
case the trial judge’s, belief that the law of Oklahoma precluded him from considering
any mitigating factor outside of the defendant’s youth.

33

In Lockett v. Ohio, 438 U.S. 586, 8 S.Ct. 2954, 57 L.Ed.2d 973 (1978), this
Honorable Court found Ohio’s death penalty statute unconstitutional because it did
not permit consideration of character, prior record, lack of specific intent to cause
death, and relator’s minor part in the crime, as mitigating evidence. Under the
Louisiana statutory scheme these factors shall be considered.
In Abdul-Kabir v. Quarterman, 550 U.S. 233, 127 S.Ct. 1654, 167 L.Ed.2d 585
(2007), this Honorable Court reversed the Fifth Circuit Court of Appeals denial of
collateral relief, noting that “when the jury is not permitted to give meaningful effect
or a ‘reasoned moral response’ to a defendant’s mitigating evidence- because it is
forbidden from doing so by statute or a judicial interpretation of a statute-the
sentencing process is fatally flawed.” Nothing in the law or jurisprudence of the State
of Louisiana “forbids” consideration of mitigating evidence.
In Tennard v. Dretke, 542 U.S. 274, 124 S.Ct. 2562, 159 L.Ed.2d 384 (2004),
this Honorable Court reversed the Fifth Circuit Court of Appeal’s denial of a COA.
This Court found that a rule, applied uniformly in the Fifth Circuit, to Penry claims,
“has no foundation in the decisions of this Court.”6 That rule stated,
In reviewing a Penry claim, we must determine whether the mitigating
evidence introduced at trial was constitutionally relevant and beyond
the effective reach of the jury…To be constitutionally relevant, the
evidence must show (1) a uniquely severe permanent handicap with
which the defendant was burdened through no fault of his own,…and (2)
that the criminal act was attributable to this severe permanent
condition.

In Penry v. Johnson, 532 U.S. 782, 121 S.Ct. 1910, 150 L.Ed.2d 9 (2001) this Honorable Court found
that, although the jury received a supplemental instruction that made mention of mitigating evidence
(in this case, mental retardation and severe child abuse), there was no vehicle for expressing the view
that Penry did not deserve to be sentenced to death based upon his mitigating evidence.
6

34

This Court found the Fifth Circuit’s “uniquely severe permanent handicap” and
“nexus” tests to be incorrect, and held that “reasonable jurists would find debatable”
or wrong the District Court’s disposition of Tennard’s low-IQ –based Penry claim.
In Buchanan v. Angelone, 522 U.S. 269, 118 S.Ct. 757, 139 L.Ed.2d 702 (1998),
this Honorable Court found that a Virginia court’s instruction that the jury base its
sentencing decision on “all the evidence” afforded jurors an opportunity to consider
mitigating evidence.

The death sentence was affirmed, the Court finding, “The

absence of an instruction on the concept of mitigation and of instructions on
particular statutorily defined mitigating factors” did not violate defendant’s
constitutional rights.
The Louisiana statutory scheme, far from precluding consideration of
mitigating circumstances, requires it. Furthermore, none of the aforementioned
cases even broach the subject of the appropriateness of cause challenges to jurors who
express reservations as to the relevance of particular mitigating factors offered by the
defense.
Petitioner’s invitation to this Honorable Court to “require capital
jurors to consider non-statutory mitigating circumstances as a matter
of law:”
Petitioner invites this Honorable Court to move beyond ensuring capital juries
a framework within which to give meaningful effect or a ‘reasoned moral response’ to
a defendant’s mitigating evidence, and require capital juries to consider as relevant
and mitigating, and as a matter of law, any non-statutory mitigating circumstance
proffered by the defense.

35

Petitioner simultaneously cites recent case law from various state and federal
courts that demonstrate the lack of authority and support for such a rule.7 In Evans
v. State, 226 So.3d 1, 18-20 (Miss. 2017) the Mississippi Supreme Court noted that
“The venire cannot be asked whether it will accept or reject the evidence before it is
presented to it.” The Second Circuit in United States v. Whitten, 610 F.3d 168, 18387 (2d Cir. 2010) cited with approval the Tenth Circuit Court of Appeal in noting,
“The district court was not required…to allow inquiry into each juror’s views as to
specific mitigating factors as long as the voir dire was adequate to detect those in the
venire who would automatically vote for the death penalty.” (See United States v.
McCullah, 76 F.3d 1087, 1114 (10th Cir. 1996) The Eighth Circuit Court of Appeal in
United States v. Paul, 217 F.3d 989, 999-1000 (8th Cir. 2000) notes, contrary to
petitioner’s assertions in brief, that neither Lockett nor Eddings require a capital jury
to give mitigating effect or weight to any particular evidence. See also, United States
v. Bernard, 299 F.3d 467, 485-87 (5th Cir. 2002) wherein the Fifth Circuit Court of
Appeal found that neither Lockett nor Eddings expressed a “well-established rule”
requiring a capital jury to give mitigating effect or weight to any particular
evidence…”There is only a constitutional violation if there exists a reasonable

Petitioner states in brief that “The Ninth Circuit has interpreted the Lockett/Eddings rule as
requiring the sentencer to consider nonstatutory mitigation as mitigating.” In fact, at issue in
McKinney v. Ryan, 813 F.3d 798 (9th Cir. 2015) and Spreitz v Ryan, 916 F.3d 1262 (9th Cir. 2019) was
the unconstitutionality of a “causal nexus” test for nonstatutory mitigation that forbade as a matter
of law giving weight to mitigating evidence, such as family background or mental condition, unless
the background or mental condition was causally connected to the crime. This “causal nexus”
test was a creature of Arizona law and peculiar to capital defendants in Arizona. The cases have no
applicability herein.
7

36

likelihood that jurors believed themselves precluded from considering mitigating
evidence.”
It is apparently petitioner’s position that it is defense counsel that determines
what factors are relevant to mitigation. It is also petitioner’s position that the defense
is entitled to a commitment from every juror that they too believe those factors are
mitigating, prior to hearing any evidence or testimony in the guilt phase, and more
importantly, prior to hearing any evidence or testimony in mitigation.8 Petitioner
has cited no authority from this Honorable Court which supports his position.
Though petitioner has identified a few outliers, most of the jurisdiction from which
petitioner cites case law do not subscribe to defendant’s position. In fact, as pointed
out by petitioner herein, some jurisdictions go so far as to preclude questioning on
specific mitigating circumstances.
Louisiana

neither

precludes

questioning

as

to

specific

mitigating

circumstances, nor does it circumscribe in any way a defendant’s presentation of
mitigation evidence during the penalty phase of trial. Indeed, the defense presented

During voir dire, prospective jurors were only aware that the defendant was charged with first degree
murder, and that the victim was a child. This Honorable Court should also take judicial notice of the
fact that single parent households, substance abuse, physical abuse, emotional abuse, and mental
health issues are ubiquitous in our society as demonstrated by those jurors who had been affected
directly, or had family members who had been affected by these issues. Similarly, in State v Taylor,
1999-1311 (La. 1/17/01), 781 So.2d 1205, two prospective jurors struggled with the abstract notion of
a “violent upbringing” as mitigating, one of them indicating that she had “been there.” The Louisiana
Supreme Court noted correctly that “There is no statutory or legal presumption in favor of any penalty
or any mitigating circumstances, and individual jurors often, if not always, have their own inchoate or
unarticulated predispositions. Such personal predispositions do no offend the law, provided they do
not “substantially impair” the juror’s duty to follow the law. Not every predisposition or leaning in
any direction rises to the level of substantial impairment…Significantly, it is the determination of
substantial impairment that the trial judge’s broad discretion plays the critical role. A juror may
assign little weight or importance to any mitigating circumstance he does not consider significant in
light of the fact that a defendant has been convicted of first degree murder.
8

37

extensive evidence in mitigation and the prosecutor acknowledged in penalty phase
closing arguments that the petitioner had a “horrible childhood.” However, despite
this, evidence was also presented during the penalty phase that the petitioner had
family members who loved and supported him and tried everything in their power to
right the wrongs that the petitioner had suffered. Evidence showed that he abused
their trust and squandered the second chances provided not only by family, but by
the criminal justice system.
The rulings of the trial court during voir dire do not conflict in any way with
relevant decisions of this Court and petitioner has failed to state compelling reasons
for grant of certiorari.

38

CONCLUSION
For the foregoing reasons, the State of Louisiana respectfully requests that this
Honorable Court deny petitioner’s application for writ of certiorari.
RESPECTFULLY SUBMITTED,
HILLAR C. MOORE, III
DISTRICT ATTORNEY
DANA J. CUMMINGS, BAR NO. 14405
ASSISTANT DISTRICT ATTORNEY AND
CHIEF OF LITIGATION

/s/

STACY L. WRIGHT, BAR NO.25307
Counsel of Record
ASSISTANT DISTRICT ATTORNEY
NINETEENTH JUDICIAL DISTRICT COURT
PARISH OF EAST BATON ROUGE
STATE OF LOUISIANA
222 ST. LOUIS STREET, FIFTH FLOOR
BATON ROUGE, LOUISIANA 70802
TELEPHONE: (225) 389-3453
E-MAIL: stacy.wright@ebrda.org
Counsel for Respondent

39

